<html>
<title> - ASSESSING TELEWORK POLICIES AND INITIATIVES IN THE FEDERAL GOVERNMENT</title>
<body><pre>[Senate Hearing 110-390]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-390

 ASSESSING TELEWORK POLICIES AND INITIATIVES IN THE FEDERAL GOVERNMENT

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 12, 2007

                               __________

        Available via http://www.access.gpo.gov/congress/senate

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2008
36-613 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001





        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
THOMAS R. CARPER, Delaware           TED STEVENS, Alaska
MARK L. PRYOR, Arkansas              TOM COBURN, Oklahoma
MARY L. LANDRIEU, Louisiana          JOHN WARNER, Virginia

                   Richard J. Kessler, Staff Director
               Thomas Richards, Professional Staff Member
             Jennifer A. Hemingway, Minority Staff Director
           Theresa Prych, Minority Professional Staff Member
                      Emily Marthaler, Chief Clerk




                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Stevens..............................................     2
    Senator Voinovich............................................     4

                               WITNESSES
                         Tuesday, June 12, 2007

Daniel A. Green, Deputy Associate Director for Employee and 
  Family Support Policy, Strategic Human Resources Policy 
  Division, Office of Personnel Management.......................     5
Hon. Jon W. Dudas, Under Secretary for Intellectual Property, and 
  Director, U.S. Patent and Trademark Office, U.S. Department of 
  Commerce.......................................................     7
Stanley Kaczmarczyk, Principal Deputy Associate Administrator for 
  Governmentwide Policy, U.S. General Services Administration....     9
Bernice Steinhardt, Director of Strategic Issues, U.S. Government 
  Accountability Office..........................................    11
Tom Davison, Trustee of the Board, Chapter 275, Environmental 
  Protection Agency Region 5, on behalf of the Federal Managers 
  Association....................................................    25
Stephen W.T. O'Keeffe, Founder and Executive Director, Telework 
  Exchange.......................................................    26
David Isaacs, Director of Federal Government Affairs, Hewlett-
  Packard Company................................................    29

                     Alphabetical List of Witnesses

Davison, Tom:
    Testimony....................................................    25
    Prepared statement...........................................    78
Dudas, Hon. Jon W.:
    Testimony....................................................     7
    Prepared statement...........................................    44
Green, Daniel A:
    Testimony....................................................     5
    Prepared statement...........................................    35
Isaacs, David:
    Testimony....................................................    29
    Prepared statement...........................................    93
Kaczmarczyk, Stanley:
    Testimony....................................................     9
    Prepared statement with attachments..........................    59
O'Keeffe, Stephen W.T.:
    Testimony....................................................    26
    Prepared statement...........................................    85
Steinhardt, Bernice:
    Testimony....................................................    11
    Prepared statement...........................................    66

                                APPENDIX

Background.......................................................    99
Questions and responses for the Record from:
    Mr. Green....................................................   105
    Mr. Kaczmarczyk..............................................   106




 
 ASSESSING TELEWORK POLICIES AND INITIATIVES IN THE FEDERAL GOVERNMENT

                              ----------                              


                         TUESDAY, JUNE 12, 2007

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:35 p.m., in 
Room SD-562, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka, Voinovich, and Stevens.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. This hearing will come to order. I want to 
welcome all of you to this hearing of the Subcommittee on 
Oversight of Government Management, the Federal Workforce, and 
the District of Columbia as we meet to consider the issue of 
telework, otherwise known as telecommuting, in the Federal 
Government. We will also be reviewing S. 1000, the Telework 
Enhancement Act of 2007, introduced by my good friend Senator 
Stevens to promote telework programs.
    Telework programs have allowed Federal employees to work 
from their home offices or telework centers close to their 
homes for nearly two decades. As the Internet and wireless 
communication technologies have become commonplace in the work 
environment, the costs and concerns with security for 
teleworking have diminished significantly.
    Over the past 10 years, the option for government employees 
to work from home or a remote location closer to home has 
become not only a quality-of-life issue but a necessary 
component of Federal agencies in addressing continuity of 
operation plans.
    Congress, and rightly so, has been vigorous in its efforts 
to enhance telework and encourage more agencies to implement 
comprehensive and robust programs. Telework has emerged as a 
dynamic option for agencies to offer more flexible work 
schedules, reduce overall traffic congestion, continue 
operations in the event of an emergency, limit overall costs, 
and improve energy efficiency.
    With nearly 50 percent of the Federal workforce eligible 
for retirement in the next 5 years, agencies must use all 
available tools to keep and attract talented Federal workers. 
Telework allows agencies to compete in today's marketplace. 
Offering employees an option to work from home or a location 
closer to home improves an employee's quality of life and in 
the process eases the traffic burden on metropolitan areas.
    According to a survey by the Texas Transportation 
Institute, the National Capital Region ranks third behind Los 
Angeles and San Francisco for the worst traffic congestion in 
America. In Hawaii, gas prices rank seventh among the highest 
in the Nation. The Department of Transportation has launched an 
initiative in this area, the National Strategy to Reduce 
Congestion on America's Transportation Network, which promotes 
public and private employers to use telework as a primary tool 
in reducing congestion and saving commuters' money on 
escalating gas prices.
    As the largest employer in the National Capital Region, and 
one of the largest employers in Hawaii, the Federal Government 
has a responsibility to help reduce commuting times and costs 
for area workers. Furthermore, it is imperative that we develop 
strategies to maintain continuity of government operations 
should a natural or manmade disaster disrupt services.
    OPM and GSA have been leaders in providing telework 
resources for agencies. They launched the Interagency Telework 
Site and worked with other agencies to implement telework 
programs. A few shining examples include the Patent and 
Trademark Office--who I look forward to hearing from this 
afternoon--the Treasury Inspector General for Tax 
Administration Office, and the Federal Aviation Administration.
    Telework implementation should not be stalled by 
trepidation. I look forward to discussing ways to improve 
governmentwide telework policies and practices and hearing our 
witnesses' thoughts on the Telework Enhancement Act. Again, I 
thank you all for being here today.
    Now I would like to call on my friend, Senator Stevens, for 
his statement. Senator Stevens?

              OPENING STATEMENT OF SENATOR STEVENS

    Senator Stevens. Well, thank you very much, Senator Akaka. 
I am pleased you called this hearing today to review the 
proposal before us. It is time to take a real serious look at 
the current telework program.
    This has far-reaching benefits not only to employees and 
employers but to the whole Nation, I think, because clearly it 
involves national security as well as the sustainability of our 
environment. And the period of time we are going through right 
now with global climate change as well as the intensive 
national security issues, I think, warrants taking a look at 
what has happened to the legislation we enacted in 2000. It was 
signed into law that year as part of the highway bill. That 
required agencies to establish a policy under which eligible 
employees of the agency may participate in telecommunicating to 
the maximum extent possible without diminished employee 
performance. It was intended to apply to 25 percent of the 
Federal workforce, and an additional 25 percent of the 
workforce each year thereafter, and the objective of the 2000 
legislation was to alleviate traffic congestion and increase 
Federal employee ability to participate in telework.
    Our bill's conference report made it clear that each 
Federal agency should establish telework criteria, remove 
barriers to implementation, and provide all the assistance 
necessary to carry out that policy.
    Two agencies really have carried out this mandate. The 
Office of Personnel Management and the General Services 
Administration formed a common website to facilitate the 
advancement of the telework program, and I think the efforts 
have brought about a degree of success.
    Between 2001 and 2004, Mr. Chairman, 150,000 Federal 
employees gained eligibility for telework, bringing total 
eligibility up to 44 percent of the Federal workforce. But 
despite the loose definition of ``telework,'' which is an 
employee who works from home 1 day per week--that would be a 
teleworker--only 19 percent of those eligible were deemed as 
having teleworked in 2004. There are some who say that this low 
percentage is due to insufficient information available to 
employees and difficulties with program coordination and 
workforce culture issues.
    OPM and GSA should be commended for the strides they have 
made to try and implement this program, and over the course of 
the past 7 years, there have been several enhancements to help 
achieve the original goals of the program.
    Senator Landrieu and I introduced a bill to bring about 
additional improvements, the bill that you mentioned, S. 1000. 
I do believe that we need to build upon the existing telework 
program to ensure maximum telework participation among our 
Federal workforce, and our bill is designed to improve the cost 
efficiency of the Federal Government, encourage Federal 
employees to drive less, reduce traffic congestion, save fuel 
that in and of itself that will restrain the greenhouse 
emissions in major cities. It, I believe, will enhance efforts 
by our Federal Government with respect to continuity of 
operations, and provide incentives to the employees to try to 
adopt this means of working.
    This should attract and retain highly skilled Federal 
personnel if the program is administered to its fullest. I do 
believe there are models for this program in some of the 
private sector. I do hope those of you who are witnesses here 
today will help us find ways to increase the effectiveness of 
this program, and I look forward to the testimony, Mr. 
Chairman.
    Again, I thank you very much and I thank the witnesses for 
coming.
    Senator Akaka. Thank you very much, Senator Stevens.
    At this time I want to welcome our first panel. Let me 
introduce the first panel, and then I will call on Senator 
Voinovich for his statement.
    Daniel Green is Deputy Associate Director for Employee and 
Family Support Policy for the Strategic Human Resources Policy 
Division at the Office of Personnel Management.
    Jon Dudas is Under Secretary of Commerce for Intellectual 
Property and Director of the Patent and Trademark Office.
    Stan Kaczmarczyk is Principal Deputy Associate 
Administrator for Governmentwide Policy at the General Services 
Administration.
    And Bernice Steinhardt is Director of Strategic Issues for 
the U.S. Government Accountability Office.
    Good to have you, and let me call on Senator Voinovich for 
his opening statement.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Mr. Chairman. Thanks for 
holding this hearing to discuss the status of our telework 
programs and consider legislation before the Committee to 
increase participation throughout the Federal workforce. Off 
the top, I am very interested in this because my daughter-in-
law takes advantage of this every day in her home with her four 
children.
    One of my top priorities as Senator has been to transform 
the culture of the Federal workforce, something I 
conscientiously undertook with the city and State workforces as 
Mayor of Cleveland and Governor of Ohio. As Senator, I have 
held 26 hearings on the crisis of human capital in the Federal 
Government and introduced numerous human capital reform bills, 
including the Homeland Security Act of 2002 and the Federal 
Workforce Flexibility Act. I know that investing in our 
workforce pays big dividends.
    We have an aging workforce that has difficulty attracting 
young people to public service careers. The image of the public 
sector can be bureaucratic, an impression that too often 
discourages young, creative college students. We must be able 
to recruit the best candidates, provide training and 
professional development opportunities, and reward good 
performance.
    To compete as an employer of choice in the fast-paced 21 
Century knowledge economy and improve our competitiveness, we 
need to create an environment that supports those with the 
desire and commitment to serve. Just as other aspects of their 
lives have been informed by technology, we need to acknowledge 
that this next generation will have different expectations of 
what it means to go to work. Growing up with cell phones and 
hand-held devices makes it far more likely that working anytime 
from most anywhere will be the new norm.
    As I stated in my 2000 report to the President on the 
crisis in human capital, Federal agencies should enable as many 
employees as possible to telecommute or participate in other 
types of flexible workplace programs. Not only will this make 
Federal service more attractive to many employees, especially 
parents of young children, it has the potential to reduce 
traffic congestion and pollution in large metropolitan areas. 
An additional reason that was made plain on September 11, 2001, 
is the need for a workforce that can be dispersed and 
decentralized so that essential functions can continue during 
an emergency.
    My good friend Senator Stevens has introduced S. 1000, the 
Telework Enhancement Act of 2007, to ensure that executive 
agencies begin with the presumption that all Federal employees 
are eligible to telework unless specifically exempt and to 
extent this principle to the judicial and Legislative Branches 
by encouraging participation wherever possible.
    According to the most recent OPM survey on Federal human 
capital, only 22 percent of employees, when asked about 
worklife, and family-friendly benefits, said they were 
satisfied with current telework communicating opportunities. 
Another 44 percent responded that they had no basis to judge. 
Even though teleworking has increased since OPM began reporting 
in 2001, participation is far short of what it should be and 
what the Federal workforce needs if our government is to remain 
an employer of choice.
    So I thank you, Mr. Chairman, for this hearing, and I want 
to thank Senator Stevens for the introduction of S. 1000.
    Senator Akaka. Thank you very much, Senator Voinovich.
    As you know, our Committee has rules that require that all 
witnesses testify under oath. Therefore, I ask you to please 
rise with me and raise your right hand. Do you solemnly swear 
that the testimony you are about to give this Committee is the 
truth, the whole truth, and nothing but the truth, so help you, 
God?
    Mr. Green. I do.
    Mr. Dudas. I do.
    Mr. Kaczmarczyk. I do.
    Ms. Steinhardt. I do.
    Senator Akaka. Let the record note that the witnesses 
answered in the affirmative. Welcome, and before we begin, let 
me tell you that although your oral statement is limited to 5 
minutes, your full written statements will be included in the 
record.
    Mr. Green, will you please proceed with your statement?

TESTIMONY OF DANIEL A. GREEN,\1\ DEPUTY ASSOCIATE DIRECTOR FOR 
 EMPLOYEE AND FAMILY SUPPORT POLICY, STRATEGIC HUMAN RESOURCES 
        POLICY DIVISION, OFFICE OF PERSONNEL MANAGEMENT

    Mr. Green. Mr. Chairman and Members of the Subcommittee, I 
am pleased to be here today on behalf of Director Linda M. 
Springer of the Office of Personnel Management to discuss the 
status of telework in the Federal Government. Telework has 
become an important human capital management tool for ensuring 
the Federal Government has an effective and flexible civilian 
workforce capable of meeting 21 Century challenges. As Director 
Springer seeks to advance the Strategic Management of Human 
Capital component to President Bush's Management Agenda, we are 
seeing increased signs that Federal agencies are keenly aware 
that telework is a useful tool which can help attract and 
retain a 21 Century high-performing workforce that produces 
high-quality results.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Green appears in the Appendix on 
page 35.
---------------------------------------------------------------------------
    We also recognize the relationship between telework and 
Continuity of Operations (COOP) planning and the impact 
telework can have on traffic congestion and energy consumption. 
Additionally, telework can be used as a method to increase 
available employment options for individuals with disabilities.
    As you may recall, last year Director Springer introduced 
our Career Patterns initiative. This new approach for bringing 
the next generation of employees into the Federal Government 
highlights telework as a High Impact HR Flexibility. In 
preparation for the looming retirement wave, we have encouraged 
Federal agencies to shift their thinking about the work 
environment to make it more appealing to non-traditional 
employees and applicants. We are pleased to see that many 
Federal agencies have begun to operate and hire using OPM's 
Career Patterns approach.
    We recognize that telework can also be a critical component 
for emergency COOP activities. Director Springer initiated a 
telework exercise at OPM in September 2006 to test our State of 
readiness and the ability of our employees to conduct mission-
critical functions and activities in the event of an emergency. 
While we encountered a few minor technical difficulties along 
the way, the overall exercise was carried out smoothly. We are 
encouraging other Federal agencies to incorporate telework into 
their own COOP planning efforts.
    President Bush's Implementation Plan for his National 
Strategy for Pandemic Influenza specifically directed OPM to 
update existing telework guidance to include information about 
teleworking in the event of a pandemic influenza. In response 
to this requirement, OPM issued a revised comprehensive ``Guide 
to Telework in the Federal Government,'' which was distributed 
to all Federal agencies. In addition, OPM is now visiting with 
Federal agencies to provide comprehensive briefings on policies 
regarding pandemic preparedness and telework.
    OPM is using the Chief Human Capital Officers (CHCO) 
Council chaired by Director Springer to highlight best 
practices on telework across the Federal Government. In 
February 2006, the Council's Training Academy conducted a 
session with over 50 attendees representing more than 20 
agencies. Attendees learned how effective and valuable telework 
is for the Defense Information Systems Agency and preparation 
for Base Realignment and Closure activities. The International 
Trade Commission's Director of Administration and the union 
president of the local American Federation of Government 
Employees co-presented their agency's telework tracking system.
    OPM also conducts an annual survey of agencies with respect 
to telework. In our most recent surveys for 2005 and 2006, we 
have worked to further clarify terminology and eligibility 
definitions in order to solicit more complete and focused data. 
In addition, we are now seeking more detailed responses from 
agencies through these surveys with respect to information 
security. While we will shortly be releasing the latest data 
from our most recent surveys, we are pleased that during the 
administration's first term, telework by Federal employees 
nearly doubled from 73,000 in 2001 to over 140,000 in 2004.
    Mr. Chairman, your letter of invitation also asked me to 
address S. 1000, the Telework Enhancement Act of 2007, which 
was recently introduced by Senator Ted Stevens. We appreciate 
Senator Stevens' longstanding advocacy for Federal employees, 
and we appreciate the Subcommittee's interest in moving this 
legislation forward. We are looking forward to talking more 
with your staff on specific issues. As the legislative process 
moves forward, we want to ensure our mutual goals can be 
effectively met with respect to enhanced use of telework by 
Federal managers and employees.
    In conclusion, we believe Federal agencies recognize the 
value and impact telework can have with respect to strategic 
human capital management, effective COOP planning, traffic 
congestion, and energy consumption. We are committed to working 
with GSA, GAO, this Subcommittee, and others to ensure telework 
policies are effectively managed and promoted.
    Mr. Chairman, I would be pleased to respond to any 
questions you or Members of the Subcommittee may have.
    Senator Akaka. Thank you very much, Mr. Green.
    Mr. Dudas, will you please proceed with your statement?

    TESTIMONY OF HON. JON W. DUDAS,\1\ UNDER SECRETARY FOR 
INTELLECTUAL PROPERTY, AND DIRECTOR, U.S. PATENT AND TRADEMARK 
              OFFICE, U.S. DEPARTMENT OF COMMERCE

    Mr. Dudas. Thank you, Mr. Chairman, Ranking Member 
Voinovich, and Senator Stevens. Thanks for the opportunity to 
appear before you and testify about the perspectives from the 
U.S. Patent and Trademark Office (USPTO) on the Federal 
Government's telework policies and how to better encourage the 
use of telework to improve satisfaction of Federal workers and 
the bottom lines of Federal agencies. Throughout my testimony, 
I will limit my comments to the one experience I know, which is 
the U.S. Patent and Trademark Office. I am happy to tell you 
where the USPTO was, where we are now, and where we think we 
are going in terms of teleworking and why we think S. 1000 can 
be helpful in that process.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dudas appears in the Appendix on 
page 44.
---------------------------------------------------------------------------
    Where we were is quite simple. Ten years and 2 weeks ago we 
had no teleworking in the agency at all. It took courage and 
determination to make it happen, and there were many obstacles 
ranging from negative attitudes and naysayers to insufficient 
technology at the time. But the agency did have great people 
and they had vision and motivation. Today the USPTO has 3,414 
employees teleworking in more than a dozen different 
teleworking programs; 1,255 employees are working 4 days a week 
from home, including 85 percent of all eligible trademark 
examiners.
    We are at the beginning stages of recognizing that we can 
not only be a successful local teleworking force, but that we 
could become a nationwide workforce through teleworking. We 
currently have teleworkers working in 14 States and the 
District of Columbia, including teleworkers as far away as 
Colorado, the State of Washington, and the State of Hawaii.
    The USPTO has received numerous notable awards, including 
from the Metropolitan Washington Council of Governments, the 
Telework Exchange, the Mid-Atlantic Telework Advisory Council, 
the Telework Coalition, the International Telework Association 
Council, and the Potomac Forum. We have a slide showing the 
different awards which we are extremely proud to have received, 
which shows how we have become a leader in teleworking.
    Just last week, we celebrated our tenth anniversary of 
teleworking at the agency. Seventeen of the 18 original people 
on the telework pilot are still with the agency, 10 years 
later.
    We have also been chosen by Business Week Magazine as one 
of the best places in the United States to launch a career and 
by Family Magazine as one of the best places in the Washington 
area to work if you have a family. That is due in part to our 
teleworking programs, and it is critical for us to be an 
employer of choice. As Senator Voinovich talked about, telework 
is so important for government agencies.
    Why do we do it? Quite honestly, pretty selfish reasons. We 
do it because it helps us with our business, it helps us with 
our bottom line. It solves problems in our agency. We do it 
because it has employee advantages. It improves morale. It 
makes employees want to do more, and employees are able to do 
more. So really for us it involves a lot of bottom-line issues. 
We recognize there are a lot of additional advantages to that 
beyond what it does for the agency, but fundamentally what we 
have found is that it solves problems for us.
    Where we are going is important to us as well. The USPTO is 
exploring the feasibility of creating a nationwide workplace 
where an examiner can work from anywhere in the country. Our 
goal is to meet current and future workforce requirements by 
attracting the best and the brightest examiners and employees 
from outside the Mid-Atlantic Region, to increase our retention 
rates at the Patent and Trademark Office, and to manage the 
real estate costs associated with the expansion that is 
underway. We are hiring 1,200 new engineers every year at the 
Patent and Trademark Office. Retention is very important to us. 
Recruitment is very important to us.
    What do we need to get there? We need to be sure that the 
necessary training and full collaboration are there. That falls 
on us at the USPTO. This requires training in technical skills 
and managerial skills, as well as new and better technology for 
collaboration. But as we transition from a very real success 
story of a local teleworking unit to what I believe could be a 
real success story as a fully integrated nationwide teleworking 
agency, we'll have one important need. The USPTO would like to 
propose some sort of demonstration project that would give 
discretion to the USPTO to reimburse telework employees for 
travel expenses when reporting to the official Alexandria 
worksite.
    The current law, we believe, as we transition to a 
nationwide workforce, deters potential workers from voluntarily 
locating outside the area. In other words, we have people that 
are working in 14 different States and the District of 
Columbia. We cannot tell them that we do not need them in the 
office, but they have told us, ``If I could pay my own expenses 
and come back, I would like to do that.'' There are ways that 
we can do that through a demonstration project. A change to 
that travel policy would help USPTO utilize telework in its 
efforts to retain a highly qualified workforce.
    We are very pleased that Senators Stevens and Landrieu 
introduced the Telework Enhancement Act of 2007. For any 
telework program to be productive, all eligible employees 
should be encouraged to participate in telework to the maximum 
extent possible. Managers must be on board, and telework 
officers should be aggressive in expanding the agency's 
telework program, including proposing new pilot programs.
    The Telework Enhancement Act of 2007 changes telework 
eligibility to make all Federal employees eligible, unless 
determined otherwise by each agency, with few exceptions. At 
the USPTO, we think that is the right way to approach it, with 
more serious consideration being given in deciding who is 
eligible for telework. Based on our experiences, having a 
senior-level full-time telework coordinator at the USPTO who 
works with the various business units and serves as a liaison 
between employees and managers has been invaluable to us in 
promoting and supporting telework and coordinating telework 
programs throughout the USPTO.
    S. 1000 also revises the definition of telework to be an 
arrangement where an employee works at an alternative work site 
at least 2 days per week versus the current definition of 1 
day. At the USPTO, our experience has been having a 1-day 
requirement is actually helpful. You certainly have to be able 
to measure how many people you have teleworking, but right now 
we have one program with 1,500 people teleworking from home. We 
think that there are certain positions where having a person 
working 1 day at home can be helpful. In fact, that has been a 
transition point at the USPTO where people have worked 1 day at 
home and then move on to work 4 days a week at home. So we 
would encourage the Subcommittee and look forward to working 
with the Subcommittee to find a way that we can maximize all 
the programs across the board to promote teleworking. Thank 
you.
    Senator Akaka. Thank you very much, Mr. Dudas.
    Mr. Kaczmarczyk, your statement, please.

TESTIMONY OF STANLEY KACZMARCZYK,\1\ PRINCIPAL DEPUTY ASSOCIATE 
ADMINISTRATOR FOR GOVERNMENTWIDE POLICY, U.S. GENERAL SERVICES 
                         ADMINISTRATION

    Mr. Kaczmarczyk. Mr. Chairman, Ranking Member Voinovich, 
and Members of the Subcommittee, I appreciate the invitation to 
appear before you today to discuss the General Services 
Administration's view on improving Federal telework 
participation and current telework activity. GSA's partnership 
with the Office of Personnel Management on the Governmentwide 
Telework Program is very active and well documented.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kaczmarczyk with attachments 
appears in the Appendix on page 59.
---------------------------------------------------------------------------
    After more than 15 years of continuing efforts to build a 
robust and vital Federal telework program, levels of 
participation are still not as high as we believe they can and 
should be. Successful implementation of telework in the Federal 
Government involves culture change and proactive senior 
leadership, along with useful policies, implementation 
guidance, program support, best practices, and effective tools. 
Over this time frame, GSA and OPM have worked continuously with 
other Federal agencies to identify and provide the needed 
guidance and tools.
    Legislation that would remove barriers to Federal telework 
is welcomed, and we look forward to working with Congress on 
appropriate telework legislation.
    Last year, GSA published Federal Management Regulation 
Bulletin 2006-B3. This first-of-its-kind guidance helps 
agencies resolve commonly encountered telework implementation 
issues, such as the provision of workplace equipment to 
teleworkers and the payment of utility costs for alternative 
worksites.
    This year, we followed up with FMR Bulletin 2007-B1, 
``Information Technology and Telecommunications Guidelines for 
Federal Telework and Other Alternative Workplace Arrangement 
Programs.'' By clarifying the technology, security, and privacy 
policy guidance for telework, this guidance helped establish 
that telework, when appropriately implemented, can maintain 
information security.
    Technology has often been cited as a barrier to increased 
telework in the Federal Government. GSA conducted two in-depth 
studies on this topic based on survey and other information 
from agency chief information officers, managers, teleworkers, 
and telework coordinators. These studies are readily available 
on our website at gsa.gov/telework.
    There has been widespread interest in the incorporation of 
telework as a mechanism for emergency Continuity of Operations 
Plans (COOP). This is a natural benefit of telework, but you 
cannot wait until an emergency to implement a COOP telework 
program. Federal agencies must have a viable telework program 
in place as part of normal operations plan so that employees 
may fully transition to this alternative work arrangement in 
the event of an emergency.
    Other valuable telework applications include: Telework 
combined with alternative officing can enable agencies to 
reduce cost and improve the utilization of existing facilities.
    Telework is also a great way to enhance recruitment and 
retention of Federal workers and to improve work/life balance. 
Would you rather be stuck on the Beltway at rush hour or be 
done with your work in time to make the kid's soccer practice?
    And the environmental impact of telework should serve as 
additional motivation for stronger telework participation 
policies.
    In order to provide an alternative to home-based telework, 
GSA has established 14 telework centers to provide alternative 
workplaces for those employees who cannot or prefer not to work 
at home. These centers, located in Maryland, Virginia, and West 
Virginia, are established in convenient locations for use by 
employees who can reduce their traditional commutes by working 
at a center near their homes. We believe there is a market for 
center-based telework, and, in fact, I am a long-time user of 
our Fairfax Telework Center.
    In conclusion, GSA's goals of improving the growth of 
Federal telework requires proactive top level leadership; 
strong policy mandates and clear guidelines; increased program 
support and integration of telework into overall agency 
planning; increased demonstration and utilization of telework 
applications and recommended practices; and high visibility 
program promotion.
    I would be happy to answer any questions that you may have. 
Thank you.
    Senator Akaka. Thank you very much, Mr. Kaczmarczyk. Ms. 
Steinhardt.

   TESTIMONY OF BERNICE STEINHARDT,\1\ DIRECTOR OF STRATEGIC 
         ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Steinhardt. Thank you very much, Senator Akaka and 
Senator Stevens. We appreciate the opportunity to be here today 
to talk about the Federal Government's efforts----
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Steinhardt appears in the 
Appendix on page 66.
---------------------------------------------------------------------------
    Senator Stevens. Could you turn on your mike?
    Ms. Steinhardt. Is it on now? Yes. Thanks.
    Over the years GAO has reported on these efforts, and we 
have noted Congress' great interest and desire for greater 
progress. Currently, you are considering S. 1000, the Telework 
Enhancement Act of 2007. We have a number of comments on the 
bill which we have discussed with your staffs and which I have 
covered in my statement, but let me say at the outset that we 
appreciate your efforts to try to bring greater coherence to 
this governmentwide program.
    The potential benefits of telework to employees, employers, 
and to society are by now well known. My colleagues here have 
mentioned them, as well as others. Yet GAO's work over the last 
few years suggests, as we usually do, that more could be done 
to better realize the potential of telework within the Federal 
Government, beginning with the fundamental concept of managing 
for results.
    By this I mean that agencies need to have meaningful 
measures of what they are trying to achieve through telework, 
and they need to be using this information to achieve better 
results.
    For example, if we are trying to reduce vehicle congestion 
or attract and retain top talent, then we should be measuring 
the extent to which telework contributes to these goals. I 
think Mr. Dudas at PTO incorporates some of these practices in 
their program.
    In our 2003 report, though, on telework programs, we 
identified 24 key practices that Federal agencies should follow 
in implementing their telework programs. Four of them were 
related to managing for results. But when we looked at how four 
agencies--the Department of Education, VA, OPM, and GSA--were 
implementing their programs, we found that these four practices 
were among the least employed and that none of the agencies 
were effectively implementing any of them.
    Clearly, the weakest area, the one in which none of the 
agencies had any efforts underway, was in establishing 
measurable program goals. Although OPM's Telework Guide at that 
time suggested that agencies should be evaluating the effect of 
telework on productivity, on operating costs, morale, 
recruitment, retention, none of the agencies had established 
these or any other relevant program goals. They had not set 
targets for them, and they had not collected the information 
that could allow for evaluation. And without this kind of 
information, agencies could not implement one of the other key 
practices, which is to identify problems or issues with the 
telework program and make appropriate adjustments.
    In a later review we conducted in 2005, we looked at how 
five other agencies--Departments of Commerce, Justice, State, 
the SEC, and SBA were implementing their telework programs, and 
we found that most of them measured employee participation in 
telework based on their potential to telework--that is, by 
counting telework agreements rather than actual usage. None of 
the agencies had the capability at that time to track who was 
actually teleworking or how frequently, although we understand 
that the Justice Department seems to have made some progress on 
this since then.
    Even for more basic measurements like eligibility, agencies 
used such differing methods to calculate them that there really 
isn't a meaningful picture of eligibility when you look across 
the entire Federal Government.
    To help agencies better manage for results through telework 
programs, our 2005 report said that Congress should determine 
ways to promote more consistent definitions and measures 
related to telework. In particular, we suggested that Congress 
might want to have OPM, working through the Chief Human Capital 
Officers Council, develop a set of definitions and measures 
that would allow for a more meaningful assessment of progress 
in agency telework programs. Some information could be improved 
by more consistent definitions, such as eligibility. Some 
information may take additional effort to collect as, for 
example, on actual usage of telework. Some of the information 
may already be available through existing sources, like the 
Federal Human Capital Survey and the Federal Benefits Survey 
that ask Federal employees about their satisfaction with 
telework. But, in any case, we believe that OPM and the Chief 
Human Capital Officers Council, the CHCO Council, are well 
positioned to sort through these issues and to consider what 
information might be most useful.
    Let me just say in closing that we would be pleased to 
continue to work with you and your staffs. We look forward to 
it, and with that, I would be happy to answer any questions. 
Thank you.
    Senator Akaka. Thank you very much, Ms. Steinhardt, for 
your statement. I understand your questions and your statement 
about consistent definitions.
    Mr. Green, according to your agency and GSA, telework is 
defined as ``the ability to work at a location other than your 
official duty station.'' Agencies, however, may define telework 
differently when it comes to reporting the number of eligible 
and participating employees. One hundred forty-one thousand 
Federal employees currently telework, but we do not know what 
that really means without a uniform definition.
    Mr. Green, how do you define telework as it relates to 
eligibility and participation? And what is your plan for 
developing a more uniform definition of telework?
    Mr. Green. Yes, sir. First of all, I agree with you 100 
percent. The definitions needed work and specificity because 
they were too broad and ephemeral to be useful. So, we worked 
with agency telework coordinators and others over the past few 
years to come up with a new set of structured definitions, 
which we have incorporated into our most recent report using 
the 2005 data. We expect this report to be issued in the next 
few days, and the report using the 2006 data, which we are now 
analyzing and will be issued subsequently.
    These new definitions take into account current 
legislation, which says that employees are eligible to telework 
with certain specified exceptions, primarily those who work 
with classified information, or whose presence on the job is 
absolutely necessary every day.
    We have defined telework participation based on three 
separate telework frequencies: 1 or 2 days a week, 3 more days 
a week, and less than 1 day a week but at least 1 day a month 
so that we capture a broad range of information but still 
structure it based on the current status of telework. I think 
that will lead to more consistency across agencies in our 
reporting.
    Senator Akaka. Thank you.
    Mr. Kaczmarczyk, telework centers such as the one in 
Honolulu can offer Federal employees a more convenient location 
to commute to than their regular office location. Public-
private partnerships help facilitate these remote sites. What 
is GSA doing to forge public-private partnerships?
    Mr. Kaczmarczyk. All of the telework centers that we 
operate currently operate under an agreement with some sort of 
public-private partnership usually involving a university such 
as George Mason University or Bowie State University, so maybe 
public-public is better. There is also one that is with 
Lockheed Martin. There are collaborative efforts that are 
funded by GSA. The users are charged fees to use the telework 
centers. And in addition to being used by Federal workers, they 
are also eligible to be used by private sector users. I have 
myself seen many private start-up companies using the telework 
center in lieu of renting office space until they get on their 
feet. Many of the universities that we work with will actually 
work with small businesses to help them set up a business and 
develop and grow until they can find office space and be 
successful on their own. And they are tremendous community 
resources.
    So, in a sense, they are not strictly Federal facilities, 
but they are, both in terms of the operations and management 
and in terms of the use, true public-private partnerships.
    Senator Akaka. Have you identified a list of private 
companies that are able to address some of the security and 
logistical challenges of teleworking? And how are you sharing 
this information with participating agencies?
    Mr. Kaczmarczyk. We have actually worked with Booz Allen 
Hamilton, a consultant to GSA, when we published those two 
studies I mentioned in my statement that take a pretty thorough 
look at the different information technology barriers and 
needs. And we have identified solutions for every existing 
information technology and security barrier that there is for 
telework. And we have disseminated that information to the 
Federal Government.
    Senator Akaka. Mr. Dudas, how did the Patent Office 
convince its leaders and managers to support telework?
    Mr. Dudas. The leaders really had to be convinced 
originally by some very bright people within the office who 
recognized the good that could be done and that telework would 
improve morale. Managers who were just honored at the tenth 
anniversary of our program went to leadership at the highest 
levels to request we get this done. Then it was just a matter 
of making certain all the managers realized this is our 
direction and vision.
    I was not there at the time, but there were pioneers who 
were. It really took some guts at the top and then the managers 
had to be trained well.
    Senator Akaka. Since you have been working with telework, 
what advice would you have for other agencies struggling to get 
buy-in from their leadership?
    Mr. Dudas. I would say take a look at the issues you have 
facing your agency, the problems you face, and find out how 
teleworking can help you. Now that we are hiring 1,200 patent 
examiners a year, we would not fit in our space without 
telework. We have a new building that it took 20 years to get 
in place, and we would not even fit in our space without 
telework. So teleworking actually is the solution to a lot of 
the issues we have. I would say to leaders of agencies, just 
tell people you are going to get it done.
    Senator Akaka. Thank you, Mr. Dudas. Senator Voinovich.
    Senator Voinovich. Senator Stevens, do you have some other 
things to do and would you like to go next?
    Senator Stevens. Go right ahead.
    Senator Voinovich. OK. Mr. Kaczmarczyk, one of the 
conclusions from the GSA's May 2006 Telework Technology Cost 
study was to expand telework to a significant number of an 
organization's staff--25 to 50 percent--the organization needs 
to be able to provide basic telework infrastructure, services, 
and technology to its teleworkers.
    What is GSA doing to monitor the status of an agency's 
ability to support telework, including making sure that 
telework program investments will achieve cost savings over 
time? You have to have the money to put the infrastructure in 
and I would be interested in how GSA approach this?
    Mr. Kaczmarczyk. Unfortunately, our role is basically to do 
the analysis, to publish it, and to educate Federal agencies. 
We do not really have any oversight role as to how they spend 
their IT money, but the study was actually pretty interesting 
if you go through it in detail because it said that a lot of 
the money that you need to spend for IT infrastructure in 
support of telework is already being spent in terms of 
continuity of operations programs, emergency preparedness, 
supplying workers with laptops who travel to make 
presentations. So it is really more a matter of coordinating 
what is already being spent more so than it is spending 
additional funds. And so our job is really to educate, I think, 
the chief information officers, and we did brief one of their 
subcommittees, and we need to do some more work with them to 
educate the CIOs around the agencies about a more strategic way 
to plan their IT spending to include coordinating the spending 
for the telework programs.
    Senator Voinovich. Mr. Dudas, you stated that the Patent 
and Trademark Office decided to offer employees more than a 
dozen telework programs tailored to the needs of different 
functions rather than take a one-size-fits-all approach. What 
makes this the best approach for USPTO? And what trade-offs are 
there in administering multiple programs?
    Mr. Dudas. Certainly, our benefits are that we have 
different people working in different jobs measured in 
different ways. We do measure just about everything at the 
Patent and Trademark Office. So it has given us the opportunity 
to tailor the programs to what would be best for individuals 
within that job description. For patent examiners and trademark 
examiners, having an almost full-time work-at-home program 
seems to be the very best program. For patent judges and 
trademark judges, it has been the same thing.
    The trade-off has been that we do not have a one-size-fits-
all program. This means we have to be able to evaluate each job 
description carefully, making certain that we are testing each 
program and making certain that it is getting good value and 
that it is getting the intended benefits. That is why having 
one coordinator working throughout the USPTO has made it very 
easy for us to make those trade-offs. We can recognize which 
programs are being successful. All the numbers I gave you 
before are only programs that we think are successful. We have 
other programs underway. And another issue is, we have three 
different labor unions within the Patent and Trademark Office. 
We certainly want to make certain all employees feel that they 
are being treated equally.
    Senator Voinovich. And in terms of the labor unions, they 
have been cooperative with----
    Mr. Dudas. They have. In fact, we have a press release that 
was just released as we came in today. NTEU has lauded the 
cooperative efforts that they have had with the USPTO and other 
agencies in bringing teleworking to the forefront. Cooperation 
with the labor unions is important because we are bringing 
benefits to the employees.
    Senator Voinovich. You talked about productivity and 
reduced office space requirements. Have you really been able to 
measure increased productivity because of this?
    Mr. Dudas. I would probably put a caveat that we have seen 
increased production. Per hour productivity has not gone up, 
but what we have seen is that the people who have gone to work 
at home are as productive. We measure productivity down to the 
tenth of an hour in the patents area and down to the quarter of 
an hour in the trademarks area throughout the year. Every 2 
weeks there is a report. We have seen that people who are 
working at home are as productive or more productive, but we 
also see that they have a couple extra hours where they might 
work. So if you look overall at how much work someone working 
at home can get done in a year, they tend to get more work done 
because there is less time on the road. So as for productivity 
per patent examination per employee, we see that going up, and 
we see that per hour productivity is at least as good.
    As to your other question on building space, we used to be 
located in Crystal City. When we expanded our teleworking 
program in 2003, we cleared three floors in Crystal City. That 
saves a million and a half dollars in rent a year--a very 
obvious savings. Then when we moved into our new campus in 
Alexandria, we were able to build those costs in as we expanded 
the number of people that we had in place. We now have a 
hoteling concept. You do not have an entire office to yourself 
all week and have your work station at home. You hotel. So we 
have seen a cost savings--a very real measurable savings in 
terms of both dollars and space. And, again, we would not fit 
in the campus we have now if we did not promote teleworking as 
aggressively as we have it.
    Senator Voinovich. In terms of the workload, you have an 
idea what a good worker would produce in terms of their 
examinations?
    Mr. Dudas. Yes.
    Senator Voinovich. So what you are saying is that they do 
as well as or better than if they were sitting in an office at 
Crystal City?
    Mr. Dudas. Yes. We have a bonus structure. If you get 
beyond a certain amount done, then you get a bonus for doing 
more work. We see more people working at home going for the 
highest bonuses or at least the minimum level of production. We 
see them doing as much or more than people at the office.
    Senator Voinovich. So it is the workload rather than the 
time that generates this?
    Mr. Dudas. Yes. I do not think I was entirely clear. We 
find that on a per hour basis they are about equally 
productive. But we find that people who are working at home 
tend to work more hours because--I will surmise a guess--they 
are not on the road for the extra hour or two.
    Senator Voinovich. So the agency gets the benefit of that.
    Mr. Dudas. Yes, it seems we do.
    Senator Voinovich. Thank you.
    Senator Akaka. Thank you very much, Senator Voinovich. 
Senator Stevens.
    Senator Stevens. Thank you, Mr. Chairman.
    This bill would require each agency to have a telework 
managing officer or coordinator type of position. How many 
agencies have those now? Do you have one, Ms. Steinhardt? Do 
you have someone who manages a telework program?
    Ms. Steinhardt. At GAO?
    Senator Stevens. Yes.
    Ms. Steinhardt. Yes, we do. I think most of the agencies 
have telework----
    Senator Stevens. A full-time position?
    Ms. Steinhardt. Yes, at GAO, the telework coordinator is a 
full-time employee but with other responsibilities.
    Senator Stevens. All of you have a full-time position now?
    Mr. Green. No, sir.
    Mr. Kaczmarczyk. Not full-time. It is the responsibility of 
somebody in the HR Department.
    Senator Stevens. Well, in an area such as ours or any of 
these major cities, we had, when we started this program, 
envisioned the concept that if you took an office of 100 
people, 20 of them would come in a day for 5 days. So there 
would still be a sense of belonging to the system, but we would 
reduce the traffic by 80 percent. We would reduce the need for 
parking in a city by 80 percent, and we could get an increased 
performance by the people because they could concentrate better 
in doing their work.
    That does not seem to have happened, does it? We have not 
had the real--it sounds like the Patent Office may have, but I 
do not sense that the overall Federal agencies have 
concentrated on the concept of telework. Am I wrong?
    Mr. Green. No, you are not wrong.
    Senator Stevens. Why can't that be done, Mr. Green?
    Mr. Green. Well, it can be done. I don't know about a goal 
of 80 percent teleworking. I am not that far along with you on 
that. But we agree that more can be done.
    Senator Stevens. With the great advantages now of the whole 
net--the concept of computers and the networks of computers you 
can work on, I have the vision that so many people really are 
glued to their computer all day long. Am I wrong?
    Ms. Steinhardt. For many types of positions, absolutely.
    Senator Stevens. Well, have the agencies examined those 
positions to see how many of them could be done at home?
    Ms. Steinhardt. I think they have to some extent, and 
perhaps Mr. Green can shed more light on this. But I think the 
concern that we have and the issue that we have raised in our 
work is that the agencies really are not measuring--with some 
exceptions, PTO apparently--how much time or what people are 
actually--how they are using telework.
    What we know and what OPM reports is how many people could 
be teleworking, how many agreements we have in place. But are 
they absolutely reducing their commuting time? Are trips being 
reduced? We do not have the capability now to judge that 
because agencies are not measuring for that.
    So to answer your question, Senator Stevens, are we making 
progress, well, we need to have some good measures of progress, 
and then we will be able to tell.
    Senator Stevens. Well, I have the suspicion that the heads 
of agencies or the heads of divisions have the feeling that a 
teleworker is just someone who is going to go home and not work 
for the day, that there is no way of knowing whether they are 
actually doing their work. Is that a wrong impression?
    Ms. Steinhardt. I think that is a very important point, 
Senator Stevens. I am really glad you brought that up. We 
actually did a report about 10 years on telework, and in 
talking to some folks then, we found that the whole culture, 
the whole management culture really needed to shift. We still 
have remnants of this kind of industrial era of management by 
observation. I sort of picture a shop floor manager overlooking 
a factory floor.
    You do not have to see your employees, you should not have 
to see your employees to know if they are getting their work 
done. You should be managing for results. And it is that kind 
of culture that we need to move to, managing for results.
    Senator Stevens. There is a great book, ``The Soldier and 
the Great Warrior.'' I read that, in Italy, how the people on 
those floors made more mistakes because they were asleep, and 
just didn't quite keep going. No one was keeping awake. But it 
is one of those things----
    Ms. Steinhardt. Despite the observation.
    Senator Stevens. I really have to find some way to deal 
with the question of how we can increase the effectiveness of 
this now because it is getting to be even more important, I 
think, that concentration of our cities has increased to the 
point where it takes so long for an employee to get to work, it 
is so long for him to get home, that they are going to be more 
tired if they go through that traffic every day and their 
performance will be lower. It should be stimulated to do more 
of their work at home if it is at all possible.
    I also want to commend you on the concept of having a 
telework center perhaps in places like Fort Meade or other 
places. That seems to be a reasonable alternative to having to 
drive into town to do nothing but sit in front of a computer 
and do the work you could do elsewhere.
    How many of you are looking at that? Is your agency looking 
at that at the Patent Office?
    Mr. Dudas. Yes, we are. We are looking at the local 
teleworking commuting stations. In fact, the concept of the 
nationwide workforce for us really means that you could have 
telecommuting stations throughout the United States and people 
could choose where to live. So we think we are within 5 years 
of being able to do that, where there would be telecommuting 
stations throughout the country.
    Senator Stevens. You are all too young to remember it, but 
President Eisenhower had the idea of decentralizing the Federal 
Government so that we could reestablish the small cities of the 
country and give them an identity by virtue of having employees 
of a particular agency be a major portion of any such small 
city. Has that been accomplished at all through telework in any 
of your agencies? Have you had a concentration of people living 
so that they could have interaction together in a small 
location and still be part of the overall system in terms of 
the agency itself?
    Mr. Dudas. We have not yet at the USPTO, but that is what 
we are striving for within the next 5 years. In fact, we 
examine technology in every field, so perhaps it would be 
advantageous to have more of our examiners who work on high-
technology working in areas where they can have more face-to-
face interviews with people in Silicon Valley and Telecom 
Valley in Southern California. We think we will maximize 
efficiency both for our employees and for the patent system as 
a whole.
    But I will say we are not there yet, but we believe we can 
be there within the next 5 to 10 years.
    Senator Stevens. What can you tell us of the plans to 
measure the effectiveness of this concept as far as plans for 
the future? Can we believe that we can move forward and get 
some type of human capital officer of the overall agency so 
that they could supervise these individual telework managers 
in, say, the bureaus of a major department? I worked in the 
Department of Interior here in Washington during the Eisenhower 
Administration, and everybody came to the same building every 
day, and everyone went home in the same traffic every day. It 
has gotten worse now. But I have never understood why we did 
that, why we concentrate an agency in downtown Washington when 
the separate bureaus should be around in various places and get 
together once in a while for a conference of the overall 
agency. I do not see any tendency toward that now, do you? Has 
the GAO looked at this concept? How can we get people out of 
downtown Washington?
    Ms. Steinhardt. Well, GAO certainly has people outside of 
downtown Washington. We have 11 field offices around the 
country, and we think it is really important to doing our job.
    Senator Stevens. Well, you have got the field offices. I 
know that. We have got one in Alaska, too, but I wonder 
sometimes if that is not really teleworking, that is just sort 
of regionalization.
    Ms. Steinhardt. Well, it is being closer to where the rest 
of government is and where the people are. But I think we have 
learned--and perhaps other Federal agencies as well--in the 
course of working with field offices, we have learned how to 
work with people at a distance.
    Senator Stevens. Let me just close, Mr. Chairman. I am 
sorry to take so much time. I know there is another panel. But 
when you look at the question of OPM--and you, Mr. Green, you 
are OPM, aren't you?
    Mr. Green. Yes, sir.
    Senator Stevens. Have you had any concept of trying to have 
conferences of the managers, personnel managers from the 
various agencies, to encourage the use of teleworking?
    Mr. Green. Yes, sir. Through our Chief Human Capital 
Officers (CHCO) co-counsel in February, we had a training 
session in which 50 individuals representing over 20 agencies 
attended. We presented best practices from three agencies, 
including OPM, and others spoke to share information on 
telework. PTO has participated in previous training 
conferences.
    We also meet quarterly with telework coordinators from each 
agency and share best practices, discuss issues, discuss 
problems and ways to work around those.
    Senator Stevens. Well, could I just suggest this: That each 
of you think of what we might do to reduce what I would call 
the managerial resistance to telework.
    Mr. Green. Yes.
    Senator Stevens. And see if we can improve this bill 
somehow by bringing about a mandate for periodic review of 
positions and periodic review of the effectiveness of the 
program to encourage teleworking in the various agencies. Would 
you give us your comments, please?
    Thank you very much, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Stevens.
    We will have a second round of questions here. For my 
second round, the first question goes to Ms. Steinhardt. You 
talked about implementing telework by using business cases. In 
your 2003 report, you recommended establishing a business case 
for implementing telework programs and for agencies to make 
appropriate adjustments for problems with identifying telework. 
Subsequently, you note that this was not the tactic used by 
agencies in moving forward with their programs.
    For agencies who have not established a business case for 
implementation, is it too late?
    Ms. Steinhardt. Absolutely not, and I think it still 
remains essential. And I think listening to Mr. Dudas' 
testimony about what PTO did offers a very good object lesson 
in how to do it. If you have large numbers of people coming in, 
large new recruits, you have a business case to be made for 
retaining a skilled workforce in whom you are investing a great 
deal, and you need to be thinking about telework as well as a 
number of other strategies that are going to help you achieve 
that goal. You need to be setting the goal and thinking about 
how you are going to measure the use of telework in 
contributing to that goal.
    Senator Akaka. Mr. Green and Mr. Kaczmarczyk, agencies look 
to OPM and GSA for guidance in establishing telework programs. 
Could you each describe what the major problems you were told 
by agencies were in setting up those programs? Mr. Green.
    Mr. Green. Yes, sir. In addition to the usual issues, of 
course, they are concerned with how to finance the 
infrastructure and tracking systems and how to ensure that the 
mission of the agency is being accomplished. We also hear 
frequently is that there needs to be greater support at the 
executive level for the agencies, and there needs to be greater 
understanding and awareness by both employees and managers. To 
that end, one of our strategic goals for this coming fiscal 
year is to introduce additional telework training into as many 
management training courses as we can.
    Senator Akaka. Mr. Kaczmarczyk.
    Mr. Kaczmarczyk. Yes, thank you. Well, in addition to the 
basic how-to's, how to set up a telework program, what are the 
best practices, how to do a telework agreement--and all of that 
is available on the joint website, telework.gov--a couple of 
issues that have been identified repeatedly over the years is 
the IT and security issues. So we issued that guidance that I 
mentioned in my opening statement.
    We have done numerous things with OPM over the years to try 
to educate managers as to how to manage teleworkers, how to 
manage by results. And just most recently, with the telework 
centers that we manage, we ran a promotion particularly aimed 
at managers in the Federal Government. There was a survey that 
was done by the Telework Exchange, who I believe are on the 
next panel, and one of the findings of the survey was that 
managers who had teleworked themselves were more favorably 
disposed towards a telework program because they understood 
what it was all about. They understood you could work outside 
of the office and get something done.
    So we ran a promotion, and since the beginning of the 
promotion early this year, we have 40 managers across the 
Federal Government who have signed up to try teleworking at one 
of our centers. And just to put it in perspective, there are up 
to 14 centers; there are about 250 total seats across those 14 
centers. So 40 potential new users who not only are going to 
use the centers themselves and hopefully stay on, as the 
enticement of the free offer is intended to do, is a good 
number in itself, but also if they go back to their office and 
realize that telework is a viable option for the people who 
work for them, hopefully that can fan out across that 
population.
    Senator Akaka. Thank you very much.
    Mr. Dudas, I want to draw on your experience. Performance 
management is critical in any telework program. A loss of 
productivity because of a telework program really defeats its 
intended purpose.
    What steps did the Patent Office take to ensure that there 
was no loss of productivity in an employee's performance and 
that their performance appraisals were not negatively impacted 
by their participation in a telework program?
    Mr. Dudas. Two things. One, we were fortunate at the U.S. 
Patent and Trademark Office that even before we began 
teleworking we had solid performance metrics in place, 
measuring production down to the tenth of an hour and measuring 
quality based on objective factors. So essentially what we did 
was make certain that the same factor that applied for 
production, productivity, and quality applied at home as well 
as in the office. We cannot have a slip in productivity in 
either place.
    The other thing is that piloting programs allows managers 
and employees to build confidence. For each program we have 
had, we have piloted it at first so that we have people who can 
experience the program, bring their experiences back, and show 
that good things happen because of the program.
    For example, we began a pilot about a month ago where we 
have entire units who are telecommuting, that is the manager, 
the senior-level employees, and the junior-level employees. If 
that works, that will be the basis then for our nationwide 
workforce.
    So we think having good measurements in place in the 
absence of telework is necessary. Keeping them in place with 
telework will protect the employee, and then have pilot 
programs.
    Senator Akaka. Well, thank you for that experience.
    I would like to now pass it on to Senator Voinovich.
    Senator Voinovich. I am interested in Senator Stevens' 
frustration with this thing not working as fast as it should. 
Is there anybody at OMB that is really interested in this issue 
who is promoting it through the agencies?
    Mr. Green. Well, OMB has been very helpful recently by 
issuing guidance to all agencies about security, reinforcing 
the security issues involved and reinforcing the requirements 
that security of government property, and of government 
information----
    Senator Voinovich. Is OMB, Clay Johnson and company, 
promoting teleworking throughout the Federal Government?
    Mr. Green. I would ask them, sir.
    Senator Voinovich. So you do not know. Does anybody know? 
Well, that may be one of the reasons why it is not moving as 
fast as it should.
    Mr. Kaczmarczyk, you represent GSA. You have agencies 
coming to you all the time, and they want buildings. And I am 
sure you have to review them. But do you ever take telework 
into consideration when looking at an agency and ask, Gee, you 
are in here asking for more space, how much teleworking are you 
doing in your agency? That is another hammer that could be used 
to get agencies' attention in terms of the use of teleworking. 
You expect to do the job here in the Federal Government and you 
have got X space; a portion of that should not be needed 
because you have employees who are teleworking. Do you do any 
of that?
    Mr. Kaczmarczyk. Yes. In fact, that is one of the functions 
of my office, the Office of Governmentwide Policy, as opposed 
to the part of GSA that provides space, which is the Public 
Buildings Service. It is our job to do that kind of due 
diligence, and we have worked with the Public Buildings Service 
over the years to develop a program they call ``Workplace 
2020,'' which basically will do that type of analysis, with the 
customer coming to PBS for space, and to make sure that they 
really need that much space, and to make sure they are taking a 
hard look at using alternative work arrangements, such as 
telework, in place of new office space. There have been several 
successful pilot projects done across the country as a result.
    Again, like all telework in general, even that pilot 
program is slow rolling out into the mainstream of Federal 
space use, but we are working very hard to have those kinds of 
discussions with our customers.
    Senator Voinovich. If I came in as the Secretary of an 
agency, like the Nuclear Regulatory Commission, and want more 
space, would you say, ``Do you really need all of this space?'' 
And what percentage of staff in the NRC are working in telework 
arrangements? Do you ever ask those kinds of questions?
    Mr. Kaczmarczyk. We would ask about those types of 
questions. Also, it comes up in the context of customers who 
are upset about the cost of their rent bill, and we actually 
worked with PTO on their program, even though it cost us--when 
they vacated those three floors of space, we had to take that 
space back and either find another tenant for it or buy out the 
space. So, we are trying to do the due diligence and making 
sure that agencies really do need the space.
    We also did some work years ago with the Equal Employment 
Opportunity Commission who also were interested in doing more 
teleworking because their rent bills were too high and they 
were not getting the money in their budget, so we worked with 
them to work through the analysis of how that could be done. I 
think they may be still looking to implement that program. I am 
not sure if they have implemented it yet.
    Senator Voinovich. Mr. Green, how hard is OPM pushing?
    Mr. Green. We are doing a lot, Senator, and to put in 
another plug for my colleagues at GSA and OMB, we are all 
working to promote telework in as many ways as we can. We are 
particularly proud of the Telework Guide that we issued this 
past year that provides guidance to both employees and to 
managers on how to be an effective teleworker and how to 
effectively manage telework. We also work with the CHCO 
Council, as I mentioned before, we visit with agencies, we 
provide guidance to them, we review agency telework policies, 
and we help them resolve issues on a case-by-case basis. 
Director Springer has mentioned in numerous speeches the 
importance of telework, especially with the Career Patterns 
initiative that we have underway.
    Senator Voinovich. Well, I am really happy to hear about 
the CHCO Council because that is something that we put in our 
legislation early on, back in, I think, 1999 and 2000 with 
Senator Akaka.
    Mr. Green. It is very effective,
    Senator Voinovich. Just as an aside, I would like to have 
John Salamone, Executive Director of the CHCO Council, give us 
a report about what you have accomplished in this area and 
maybe some other things.
    Mr. Green. I am sure he would be delighted to do so.
    Senator Voinovich. Best practices, getting people together, 
talking about it. Mr. Dudas, do any of your staff show up at 
CHCO Council meetings to share with them your best practices?
    Mr. Dudas. We do. I have not shown up, but our full-time 
coordinator has shown up. In fact, we have a website explaining 
our experiences so others can look at that as well.
    Senator Voinovich. Ms. Steinhardt, have you determined a 
set of metrics that you have shared with OPM? Are you 
monitoring what is happening over there? Does OPM have standard 
reporting definitions and measures to ensure that agencies are 
reporting eligibility and actual participation separately? You 
need metrics to determine whether or not this is working, 
right? That is your job.
    Ms. Steinhardt. Exactly.
    Senator Voinovich. Do they understand the metrics that you 
are using to judge their performance in this area? Or is that 
still up in the air?
    Ms. Steinhardt. Well, it is still up in the air. That is 
exactly the problem. There is not a consistent set of metrics 
and certainly not a complete set of metrics. When we looked at 
what was going on across the agencies, we found the 
shortcomings, and that is why we suggested that OPM take that 
role, along with the CHCO Council, working with all of the 
agencies through their CHCOs to come up with that set of 
measures, ones that will yield the intended results, or at 
least be able to observe intended results.
    Senator Voinovich. Mr. Green, is it possible that you could 
get together with Ms. Steinhardt and talk about those metrics 
so that maybe you could report to----
    Mr. Green. Senator, we were talking about doing exactly 
that before this hearing started.
    Senator Voinovich. I am very glad we are having this 
hearing then. [Laughter.]
    I think that the Chairman and I would be very happy to get 
a report back in the next 6 weeks about how you have come 
together on those metrics.
    Mr. Green. Now I know we will do that.
    Senator Voinovich. Thank you.
    Senator Akaka. Thank you, Senator Voinovich. Senator 
Stevens.
    Senator Stevens. I failed to ask you, Ms. Steinhardt, about 
your recommendation for a Chief Human Capital Officers Council. 
Could you explain that for us?
    Ms. Steinhardt. Yes, I would be happy to. As I was saying 
to Senator Voinovich, we recommended or suggested that Congress 
take some action here in having OPM work with the Chief Human 
Capital Officers Council to come up with that consistent set of 
metrics so that we could tell whether we were making progress 
and what kinds of progress we were making in the telework 
program.
    Senator Stevens. Has anyone followed the suggestion yet?
    Ms. Steinhardt. I think that was Senator Voinovich's intent 
in his suggestion for us to--well, for OPM to do precisely 
that, and we would certainly be happy to support them.
    Senator Stevens. You had that in your annual report last 
year?
    Mr. Green. The recommendation? No, that was GAO.
    Senator Stevens. I thought that was a GAO request.
    Ms. Steinhardt. It was a recommendation in GAO's 2005 
report, which we mentioned earlier.
    Senator Stevens. Well, what does OPM say about the data 
that you are getting from the agencies now concerning telework? 
Is it such that you can rely on to really understand whether 
the program is working or not?
    Mr. Green. I believe it is. Is it perfect? No, sir, it is 
not. We are working with the payroll providers to come up with 
a set of standard definitions and standards on what is 
telework. For example, if a person works from home 4 hours out 
of an 8 hour workday, is that a day of telework or not?
    When you start doing electronic measures and information 
systems measures, you have to start examining fundamentals in 
order to build a report that is completely reliable. But we are 
doing that, and we are going to share that with agencies, and 
hopefully more and more will adopt it. Many agencies already 
have time and attendance systems that capture telework.
    As was mentioned earlier, other agencies report their 
amounts of telework based on the agreements that they have in 
place. So there are differences. But when we get our survey 
information from agencies, we do not just report what they say 
and move on. We review it and compare it to what they 
previously reported. That is why it is very important to have 
consistency in our annual reports and to try to keep the data 
the same year to year. We make changes only if we think it is 
going to be an improvement.
    But we take a look at the data and follow-up with agencies 
to ask questions about discrepancies. We scrub it. That is why 
it takes us a little while to issue a report. And when we issue 
a report, we believe it is a good snapshot of what is going on 
with Federal agencies and that it helps the Congress, OPM, and 
all Federal agencies see where they are and see where they need 
to be.
    Senator Stevens. Mr. Chairman, my closing remark would be 
that it is just too bad we exempted the Senate from this bill. 
I think we could have teleconferencing of hearings such as this 
and still be available and transparent to the public, and you 
could be in Hawaii and I could be in Alaska, and George could 
be suffering in Ohio's heat. [Laughter.]
    Thank you very much.
    Senator Akaka. Thank you very much, Senator Stevens. Our 
non-contiguous States can certainly benefit by this.
    Senator Voinovich. Mr. Chairman, the weather in Ohio is 
wonderful right now. [Laughter.]
    Senator Akaka. Yes. Well, I want to thank this panel. I am 
sure there are other questions, but I will keep the record open 
for about a week for Members to submit questions or statements 
that they have, and in some cases ask for you to respond to 
some of them. But I want to thank you very much. You have been 
helpful to us in further working on and crafting the bill that 
is there and even amending it so that it can be better. But we 
are relying upon you and your experiences to help us do that, 
so thank you very much again.
    Now I would like to call up our second panel. On our second 
panel, we have Tom Davison, Trustee of the Board for Chapter 
275 of the Federal Managers Association; Stephen O'Keeffe, 
Executive Director of the Telework Exchange; and David Isaacs, 
Federal Government Affairs Director of Hewlett-Packard.
    As you know, we have a requirement here to take the oath, 
so I ask the three of you to please rise with me and take the 
oath. Do you solemnly swear that in the testimony you give to 
this Committee, that it will be truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Davison. I do.
    Mr. O'Keeffe. I do.
    Mr. Isaacs. I do.
    Senator Akaka. Let the record show the witnesses responded 
in the affirmative.
    Mr. Davison, will you please proceed with your statement?

TESTIMONY OF TOM DAVISON,\1\ TRUSTEE OF THE BOARD, CHAPTER 275, 
  ENVIRONMENTAL PROTECTION AGENCY REGION 5, ON BEHALF OF THE 
                  FEDERAL MANAGERS ASSOCIATION

    Mr. Davison. Chairman Akaka, Senator Stevens, my name is 
Tom Davison. On behalf of the nearly 200,000 managers and 
supervisors in the Federal Government whose interests are 
represented by the Federal Managers Association, please allow 
me to thank you for the opportunity to present our perspective 
on the government's telework policies and recommendations to 
encourage the use of telework.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Davison appears in the Appendix 
on page 78.
---------------------------------------------------------------------------
    Currently, I serve as the Human Resources Officer for the 
Environmental Protection Agency Region 5, Chicago, a position I 
have held for over 4 years. I bring with me today 34 years of 
service in the Federal Government. Please keep in mind that I 
am here on my own time and on my own volition representing the 
views of FMA and do not speak on behalf of EPA.
    In Region 5, I provide guidance to employees and managers 
about the EPA program and represent the region in dealings with 
our local union. In Region 5, we have about 560 employees 
participating in our regular telework program; 350 on episodic 
telework and others using telework in the event of a temporary 
medical condition or disability.
    While I am pleased that well over half of EPA's employees 
are enrolled in telework, we still have more to learn about the 
impact of telework in the workplace.
    As managers and supervisors in the Federal Government, we 
at FMA are committed to being responsible stewards of taxpayer 
dollars. Telework has the potential to revolutionize Federal 
agency operations and is a vital resource in meeting the 
challenges of retaining experienced professionals and 
recruiting talented employees. Creating a flexible and modern 
workforce to compete with the private sector demands innovative 
management techniques and supervisory training. At the same 
time, we must be mindful of management concerns regarding 
telework administration.
    In conjunction with FMA, the Telework Exchange completed a 
first-of-its-kind study of Federal managers' perceptions of 
telework in which over 45 Federal agencies and departments 
participated. The study revealed that as managers become more 
involved in telework, they express more favorable attitudes 
towards it. Sixty-six percent of managers who supervise 
teleworkers find that they are as productive as their in-office 
counterparts.
    Nevertheless, the study also found that Federal managers' 
perceptions of the drivers of telework are not aligned with 
that of the agencies. Managers view the balance between work 
and private life and the impact on recruitment and retention as 
major telework drivers. Conversely, agencies perceive 
continuity of operations planning as the purpose of telework. 
We believe this finding indicates agencies need to embark on 
programs to educate managers on the priorities for and agency 
mission benefits of embracing telework as a standard operating 
procedure.
    These survey results highlight that supervisors are 
ambivalent about whether employees can get their work done 
effectively at alternative workstations. We at FMA believe 
managers should have the flexibility to decide which employees 
can participate in teleworking programs. If an employee is 
underperforming or requires more supervision, they should not 
be allowed to telecommute. Establishing clear guidelines and 
goals before using telework will help ensure no one takes 
advantage of the system.
    Managers cite fears of not having control over employees 
and productivity issues as the top telework inhibitor. Strong 
policies and clear procedures need to be in place before 
allowing employees to telework. This will ensure employees to 
know what is expected of them and allow them to focus on their 
work. Improved performance management systems would also help 
alleviate management concerns.
    Currently, OPM offers two free online training courses to 
teach managers, supervisors, and employees how to make the most 
of telework arrangements and to make them aware of their 
responsibilities, agency responsibilities, and Federal policy 
on telework. EPA supervisors are expected to take the course, 
and any EPA employee who wants to participate in the program 
must also complete the course. We encourage all Federal 
agencies to use these programs. Without educating managers and 
employees regarding these opportunities, participation will not 
advance. Training is an essential part of helping both 
employees and the agencies realize the benefits of teleworking. 
We support these training programs and believe they will be 
vital to the success of and participation in those programs.
    In order to assure success of telework programs, we ask 
Congress to consider a separate line item in the appropriations 
process to ensure training programs are properly funded and 
administered.
    Thank you for your time, and I would be happy to answer 
your questions.
    Senator Akaka. Thank you very much, Mr. Davison.
    Mr. O'Keeffe, you may proceed with your statement.

 TESTIMONY OF STEPHEN W.T. O'KEEFFE,\1\ FOUNDER AND EXECUTIVE 
                  DIRECTOR, TELEWORK EXCHANGE

    Mr. O'Keeffe. Subcommittee Chairman Akaka, Senator Stevens, 
thank you for the opportunity to speak to you today. I would 
also like to take a moment to thank Senator Stevens and Senator 
Landrieu for introducing S. 1000, the Telework Enhancement Act 
of 2007. My name is Steve O'Keeffe, and I am the founder of the 
Telework Exchange, a public-private partnership focused on 
unlocking the gridlock in Federal telework. Our partnership 
includes Federal agencies and leading private sector companies.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. O'Keeffe appears in the Appendix 
on page 85.
---------------------------------------------------------------------------
    I sit here before you as the voice of Federal employees and 
agencies on this telework issue. We have had more than 5,000 
Federal employees register on the Telework Exchange website to 
understand the cost of their commute, the cost savings they can 
realize by teleworking, and the ability for their teleworking 
to reduce effluent and pollutant into the environment.
    We have spent hundreds of hours listening to Feds talk 
about telework successes and challenges, so let's consider the 
view from behind the wheel. How does commuting look for Feds in 
America? A few data points.
    How bad is the commute? Feds spend more time commuting than 
they do on vacation each year, some 245 hours per annum.
    How much are we spending on commuting? At $3 a gallon, the 
average full-time Fed commuter spends $1,656 a year on gas 
alone. Consider today as gas prices approach $4 a gallon.
    How much gas are we burning? The average Federal employee 
uses 530 gallons of gas per year. Feds eligible to telework 
that are not doing so could save enough gas to fill more than 
5,000 Boeing 747s each year.
    Let's consider what this means for survivability or 
business continuity of government. Consider one case: Pandemic 
planning. The Federal Government will grind to a halt in the 
event of a pandemic outbreak. According to a recent study, just 
27 percent of Feds note that they will show up at the office 
should America start to sneeze. My testimony showcases four 
factors:
    Weak rules of the road. Legislation so far is a sad tale of 
insufficient horsepower and misfires.
    Road blocks. What is stopping agencies from putting 
telework into gear?
    Race leaders. Agencies that are getting it right and how we 
can use their example and proven best practices to guide 
telework adoption.
    And turbocharging. S. 1000, how the legislation allows us 
to get more out of the Federal telework by focusing on 
generating greater horsepower from the engine.
    Considering the existing rules of the road, the 2000 
legislation on Federal telework required agencies to ensure 
that 25 percent of eligible employees would be empowered to 
telework within 6 months, with an additional 25 percent 
qualifying year over year. Hence, 100 percent of eligible 
Federal employees will be working by 2005.
    That did not materialize. In fact, OPM's latest report 
finds that only 19 percent of Federal employees are actually 
teleworking. Congressman Frank Wolf of Virginia inserted 
provisions into the 2005 omnibus spending bill to reprimand 
agencies within his Subcommittee's control if they fail to meet 
the telework law requirement. Regrettably, Congressman Wolf's 
legislation proved a paper tiger. The Subcommittee did not 
enforce the appropriations holdbacks. It is time to establish 
some legislation with some real authority.
    So let's consider the road blocks. If this riding in a car 
is such an awful disease, why aren't agencies lining up for the 
telework cure? Lack of ownership. Telework coordinators within 
the agencies are overrun. The majority of telework coordinators 
spend less than 25 percent of their time on telework issues. 
They do not have the time to effectively promote telework in 
their agencies.
    Eligibility. There is no consistent framework or 
eligibility criteria. OPM reports that 81 percent of eligible 
employees are not teleworking, but a recent survey by CDW-G 
reveals that 79 percent of Federal employees would telework if 
given the option. Something does not add up. That is why we at 
the Telework Exchange have introduced a new telework 
eligibility gizmo which allows Federal employees to go online 
and identify their eligibility within seconds.
    Management intransigence. Telework coordinators rate 
management resistance as the number one obstacle to Federal 
telework adoption. Just 35 percent of Federal managers believe 
their agencies support telework.
    Productivity. We hear many managers are worried about 
productivity. USPTO and Department of Justice studies have 
shown that productivity increases of 10 to 70 percent can be 
realized through telework initiatives.
    Security. A recent concern shows that Federal teleworkers 
are, in fact, more secure than the majority of their in-office 
colleagues. Too many in-office colleagues actually carry their 
files home, and that practice was the driver for the Department 
of Veterans Affairs' security breach last year.
    Despite these road blocks, there are many agencies that are 
speeding ahead. DISA, IRS, FDIC, TIGTA, and the USPTO are 
leaders. One factor they have in common: The management of 
these agencies all support telework. DISA has reversed 
conventional thinking on telework eligibility, establishing 
eligibility as an opt-out rather than an opt-in management 
decision.
    I ask you to consider the potential to cross-pollinate the 
factors that have driven successes. S. 1000 provides a series 
of solutions.
    Not enough driver's ed. Twenty-five percent of telework 
coordinators is not the answer. S. 1000 creates the telework 
managing officer position to implement, promote, and expand 
telework programs within each agency.
    Who gets to drive policy confusion? Each agency has its own 
telework eligibility policy which drives mass confusion about 
who is allowed to telework. S. 1000 confronts this issue head 
on by turning the tables on eligibility so that everybody is 
eligible until proven otherwise.
    Poor policing. S. 1000 addresses management training on 
telework by requiring training for new employees and managers.
    Legislative paper tigers. S. 1000 requires annual reporting 
from the Government Accountability Office to track telework 
adoption effectively before Congress, putting teeth for the 
first time in the jaw of telework initiatives.
    Mr. Chairman, in closing, I ask you to take this 
opportunity to support S. 1000 and put telework into drive. I 
look forward to answering any of your questions.
    Senator Akaka. Thank you very much, Mr. O'Keeffe. Mr. 
Isaacs.

 TESTIMONY OF DAVID ISAACS,\1\ DIRECTOR OF FEDERAL GOVERNMENT 
                AFFAIRS, HEWLETT-PACKARD COMPANY

    Mr. Isaacs. Chairman Akaka, Senator Stevens, good 
afternoon. My name is David Isaacs. I am Director of Federal 
Government Affairs for the Hewlett-Packard Company here in 
Washington, DC. We appreciate the opportunity to speak with you 
today and share our views with you on teleworking within the 
Federal Government. We would like to express our appreciation 
to Senator Stevens for his leadership in this area and express 
our support for the Telework Enhancement Act of 2007.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Isaacs appears in the Appendix on 
page 93.
---------------------------------------------------------------------------
    Our views in this area are informed by two perspectives: 
One is as a technology provider to the Federal Government where 
we provide solutions to government, including teleworkers; and, 
second, as a major U.S. corporation that offers a range of 
teleworking arrangements to our employees. We have over 10,000 
employees in the United States that are teleworkers, and 
thousands of others work remotely from time to time, including 
myself.
    I think our company has achieved the benefits that have 
been articulated about teleworking, including business 
continuity, increased productivity, worker satisfaction and 
retention, and environmental benefits, and we have been 
recognized by the U.S. EPA in receiving their Commuter Choice 
Award.
    In short, I think telework is a good example of how 
technology can help the government and society at large address 
major societal challenges. I would like to focus today on some 
of the perceived obstacles that are preventing the adoption of 
greater teleworking and discuss ways that technology can 
address those concerns.
    First, you have heard security mentioned a couple times 
today and the widely reported incidents like the Department of 
Veterans Affairs' lost laptops. The HP solution to this problem 
is by offering laptops or notebook computers that have security 
features embedded into them. For example, we offer the 
government teleworker notebook computers that have biometric 
access features, software programs that allow laptops to be 
tracked down and recovered, and as well as remote wipe 
capabilities in which data on a computer can be erased 
remotely.
    Senator Stevens. What is that? Say that again?
    Mr. Isaacs. Software in which the data on a computer hard 
drive can be erased remotely over the network.
    You have also heard from the government panel that there 
are different types of workers with different teleworking 
needs, and we think that those needs need to be addressed as 
well. There is no one-size-fits-all solution for the 
teleworker, and, therefore, we recommend that procurement 
decisions take into account these different needs and allow for 
different computing, printing, voice, and other features that 
the individual worker may need and choose a vendor that can 
address all those needs comprehensively and allow for growth 
and change as technology evolves.
    I know another concern is with remote service and support 
to employees working offsite, and we think that can be 
addressed through technical solutions like online support and 
next-business-day services, and the like.
    Finally, another concern that we have heard is the lack of 
face-to-face collaboration with remote workers. One way of 
addressing that, certainly at the telework center level, is 
through videoconferencing. We think that it makes sense for 
these telework centers to install videoconferencing and 
capabilities, and HP, for example, has one solution that we 
call a ``Halo Virtual Collaboration Studio'' that enables 
direct capability and would allow you, Senator Akaka, to hold 
this hearing from Hawaii and, you, Senator Stevens, to be in 
Alaska, and allow the same level of productivity as if you are 
in the same room, whether you are across town, or across an 
ocean.
    So the bottom line is that we think that technology can 
readily address the concerns that have been articulated and 
make teleworking as common and as productive as working in the 
office.
    In conclusion, we would like to express our support for 
Senator Stevens' bill and emphasize the role that technology 
can play in promoting telework, and we thank you again for the 
opportunity to present our views. Thank you.
    Senator Akaka. Thank you very much, Mr. Isaacs. I want you 
to know that your full written statement will be included in 
the record.
    Mr. Isaacs, as you mentioned in your testimony, information 
security is a critical concern when dealing with telework. The 
loss of laptop computers--and you mentioned that--the 
mishandling of information, and the security of working from a 
remote location cannot be overlooked. What should agencies be 
doing that they currently are not doing to improve their 
security policies to prevent loss of information?
    Mr. Isaacs. Well, as I articulated in my testimony, I 
believe that purchasing decisions for the remote worker need to 
incorporate security requirements into those procurement 
policies, and security can be achieved in many ways. I 
mentioned biometric access to ensure that only authorized 
individuals have access to that device. Then accidents do 
happen. We know that. So to ensure that devices can be tracked 
remotely and located as well as what I refer to as the remote 
wipe capability, which is the erasing of data remotely, those 
are kind of basic security safeguards that we think need to be 
adopted and including in Federal purchasing decisions.
    Senator Akaka. Mr. Davison, we have seen in the telework 
survey and heard in testimony that the culture of an agency can 
present one of the greatest challenges to implementing a 
vigorous telework program. I understand that you manage 
employees who telework and coordinate telework policy. Based on 
your experiences, what can employees or managers who want to 
telework, do to change the culture of an agency to promote 
telework?
    Mr. Davison. I think it is the expectation that is set by 
top management and then down through the management chain that 
teleworking is expected, that it is the norm, that it is what 
we want to see. I think that is happening in Region 5. I think 
our employees understand that our top management does support 
it. I think that the struggle that individual managers have is 
that the individual likes teleworking, they like to make it 
available to employees. We receive strong support from our 
union to do more with teleworking. But the difficulty often is 
to deal with the employee who is in the position that might be 
susceptible telework but whose performance or conduct leaves 
the supervisor in doubt whether they are a good candidate for 
that program. And we have a great deal of difficulty dealing 
with that situation.
    The other issue that I have not heard discussed here as 
much, but I know a lot about it in the Human Resources office, 
is that teleworking is now seen as a very desirable method of 
reasonable accommodations for employees with disabilities. And 
some of these disabilities are very clear to us. People may 
have heart conditions or they may have cancer, and we are very 
sympathetic to it. Other disabilities are of a more chronic 
nature, dealing very often with mental health problems. And, 
again, we want to provide employees an opportunity to work at 
home, but I think the managers have concerns about how 
successful the employee will be if they are suffering from a 
severe medical condition.
    Senator Akaka. Mr. O'Keeffe, the Telework Exchange has been 
promoted as a resource for agencies. However, it seems that 
dispelling some of the myths of telework and changing the 
cultural barriers continues to be a challenge. What events, 
activities, and programs has Telework Exchange developed to 
promote telework at agencies?
    Mr. O'Keeffe. Thank you, Chairman Akaka. We have engaged in 
a series of studies working collaboratively with the Federal 
Managers Association to look at management resistance. 
Consistently, we hear a number of objections. One of the 
primary objections is management resistance. And so as we 
continue to slap each other on the back and talk about the 
virtues of telework, if we do not include the managers who in 
many circumstances are put forth as the principal obstacles to 
rolling out telework as a standard operating procedure across 
major agencies, then we are never going to understand what 
their attitudes are and start to turn those people. So working 
collaboratively with the managers to understand their 
perspectives, I think, has been very important.
    You mentioned earlier concerns about security, so when the 
Department of Veterans Affairs' laptop goes missing, it makes 
headlines and it is a very major issue, not just from a 
security standpoint but in terms of Americans' faith in their 
brand of government, where they have confidence in their 
government. And so as we investigate that situation, what we 
find is that the person who lost the laptop was indeed not a 
teleworker. They were a regular employee who took their files 
home with them on a regular basis. And we recently conducted a 
new study which looks at, is the government walking the walk on 
security. And what we find is that mobility is increasing 
exponentially. The number of Federal employees using laptops 
has increased exponentially year over year. I think something 
like 40 percent of the people using laptops in the Federal 
Government have started using those laptops in the last year. 
And when we ask those employees what percentage of them have 
encryption loaded on their laptops, what percentage of them 
have been trained on appropriate privacy and policy, what we 
find is that the teleworkers are exponentially better educated, 
better equipped to safeguard that information.
    We also put together a magazine that comes out every other 
month called the Teleworker, which focuses on telework issues, 
promoting successes, challenges, and opportunities in telework. 
We host meetings every other month called the Visionary 
Committee meetings where the agencies and the private sector 
come together to cross-pollinate best practices. We have a town 
hall meeting that takes place once a year, which is a 
conference specifically focused on telework.
    So there are a large number of activities that we are 
engaged in from studies to publishing to meetings and the like 
in order to provide a platform for cross-pollination of best 
practices and education.
    Senator Akaka. Would you say that Telework Exchange has a 
training program for managers and employees on telework?
    Mr. O'Keeffe. We have actually put forth to OPM a program 
where we would work with organizations like the Society for 
Human Resource Managers to provide training to Federal managers 
on best practices, not just for managers but also for 
employees, in terms of teleworking, and we are awaiting a 
response from OPM on that issue.
    Senator Akaka. Senator Stevens.
    Senator Stevens. Thank you, Mr. Chairman. Mr. O'Keeffe, you 
have mentioned the problem of the VA--we have to find some way 
to make sure that Federal employees know that security 
information cannot leave the office in their personal computers 
or be taken home by them. I think we all would agree with that.
    We noticed your study, but I wonder if one of the defects 
is the failure of the agencies to develop the systems of 
signing out. All you have to do is have your fingerprint and 
security access, or some combination of security access, and 
access from home as a teleworker rather than take home these 
documents, as was the case of the VA employee that cost the 
loss of so many addresses.
    Have you examined that at all in terms of your relationship 
with the agencies as to what we could do to increase telework 
by convincing those that are taking the stuff home illegally, 
that they should just stay home and do it and access from home? 
[Laughter.]
    Mr. O'Keeffe. We are constantly engaging with agencies. I 
think that what you see is there is a cadre of telework 
advocates in the agencies, and what we need to do is work with 
OPM. You mentioned the issue where is OMB in this discussion, 
and we would like to know and work more closely with OMB and 
OPM on these issues, and we appreciate your leadership. I think 
that the challenge today is how do we take telework to the next 
level, and that is why we really applaud your efforts in S. 
1000, because we think you hit a lot of the issues right on the 
head.
    Senator Stevens. Well, I would make the same request of you 
that we did of the other panel. If you have any suggestions for 
improvements, I would like to have them. The Subcommittee would 
like to have them.
    Mr. Isaacs, thank you for coming in from the private sector 
to tell us about your experience. Could you answer just one 
question? What about the potential for a promotion from a 
teleworker as compared to one that is in the office? It seems 
that the people who get the promotions are the ones that are 
within sight or reach rather than at home? Have you made any 
study on the potential for promotion for teleworkers?
    Mr. Isaacs. Well, Hewlett-Packard is a global company, and 
we have managers, senior executives all around the world. I 
think that their promotion prospects have not been hindered by 
failing to be at headquarters. My boss is based at Palo Alto at 
our corporate headquarters, Palo Alto, California. I run our 
DC. office. I have been promoted several times even though we 
are 3,000 miles away. I just think it is ingrained into our----
    Senator Stevens. That is the reward for staying in the 
city, I think. [Laughter.]
    Mr. Isaacs. True. I think it is ingrained in our corporate 
culture, and many companies in the private sector, that--the 
term ``manage by results'' was used earlier. I think that is 
the way it is in the private sector. Obviously, a certain 
amount of face-to-face contact is necessary and appropriate, 
but much of the work can be done through remote means. I do not 
believe it is a barrier.
    Senator Stevens. Thank you. Have you done any studies on 
the potential for promotion for those who are teleworking as 
opposed to those who are in the office?
    Mr. O'Keeffe. We have not as yet put together that type of 
study, but it is actually in the pipeline, so we would love to 
come back and talk to you about the results of that study as it 
comes out.
    Senator Stevens. Have you run across anything along that 
line, Mr. Davison?
    Mr. Davison. I have not seen studies, but I know that our 
managers are nearly all teleworkers, and so I know it is not an 
impediment to their advancement.
    Senator Stevens. All right. Good. And your managers, are 
they teleworkers on a 1-day-a-week, 2-day-a-week situation?
    Mr. Davison. It probably varies. Probably not more than 2 
days a week, and certainly at least 1 day a week. That is what 
we are encouraging as part of our COOP exercises, that our 
managers learn how to telework.
    Senator Stevens. Good. Thank you very much, Mr. Chairman. I 
am sorry to say that quorum call going off means I have to go 
to the floor. I appreciate very much your holding this hearing.
    Senator Akaka. Well, thank you very much, Senator Stevens. 
You have been a champion in this. We are looking forward to 
implementing some of the advice that we have been hearing, and 
we put this hearing together to try to get all the information 
we can on what is happening out there. As we look to the 
future, there need to be changes, and as you mentioned, costs, 
traffic, and all of that, it is not only a future impediment or 
future problem, but it is a problem that is now. And so we need 
to get to work on this as quickly as we can, and we would 
really encourage you to contact us with additional information 
that you have.
    As I mentioned before, there will be questions from Members 
of the Committee as well, and we will keep the record open for 
a week for that.
    Again, there are many other questions that we have, but I 
want to thank all of you and the witnesses for your responses, 
and I look forward to working with you.
    This hearing is adjourned.
    [Whereupon, at 4:30 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T6613.001

[GRAPHIC] [TIFF OMITTED] T6613.002

[GRAPHIC] [TIFF OMITTED] T6613.003

[GRAPHIC] [TIFF OMITTED] T6613.004

[GRAPHIC] [TIFF OMITTED] T6613.005

[GRAPHIC] [TIFF OMITTED] T6613.006

[GRAPHIC] [TIFF OMITTED] T6613.007

[GRAPHIC] [TIFF OMITTED] T6613.008

[GRAPHIC] [TIFF OMITTED] T6613.009

[GRAPHIC] [TIFF OMITTED] T6613.010

[GRAPHIC] [TIFF OMITTED] T6613.011

[GRAPHIC] [TIFF OMITTED] T6613.012

[GRAPHIC] [TIFF OMITTED] T6613.013

[GRAPHIC] [TIFF OMITTED] T6613.014

[GRAPHIC] [TIFF OMITTED] T6613.015

[GRAPHIC] [TIFF OMITTED] T6613.016

[GRAPHIC] [TIFF OMITTED] T6613.017

[GRAPHIC] [TIFF OMITTED] T6613.018

[GRAPHIC] [TIFF OMITTED] T6613.019

[GRAPHIC] [TIFF OMITTED] T6613.020

[GRAPHIC] [TIFF OMITTED] T6613.021

[GRAPHIC] [TIFF OMITTED] T6613.022

[GRAPHIC] [TIFF OMITTED] T6613.023

[GRAPHIC] [TIFF OMITTED] T6613.024

[GRAPHIC] [TIFF OMITTED] T6613.025

[GRAPHIC] [TIFF OMITTED] T6613.026

[GRAPHIC] [TIFF OMITTED] T6613.027

[GRAPHIC] [TIFF OMITTED] T6613.028

[GRAPHIC] [TIFF OMITTED] T6613.029

[GRAPHIC] [TIFF OMITTED] T6613.030

[GRAPHIC] [TIFF OMITTED] T6613.031

[GRAPHIC] [TIFF OMITTED] T6613.032

[GRAPHIC] [TIFF OMITTED] T6613.033

[GRAPHIC] [TIFF OMITTED] T6613.034

[GRAPHIC] [TIFF OMITTED] T6613.035

[GRAPHIC] [TIFF OMITTED] T6613.036

[GRAPHIC] [TIFF OMITTED] T6613.037

[GRAPHIC] [TIFF OMITTED] T6613.038

[GRAPHIC] [TIFF OMITTED] T6613.039

[GRAPHIC] [TIFF OMITTED] T6613.040

[GRAPHIC] [TIFF OMITTED] T6613.041

[GRAPHIC] [TIFF OMITTED] T6613.042

[GRAPHIC] [TIFF OMITTED] T6613.043

[GRAPHIC] [TIFF OMITTED] T6613.044

[GRAPHIC] [TIFF OMITTED] T6613.045

[GRAPHIC] [TIFF OMITTED] T6613.046

[GRAPHIC] [TIFF OMITTED] T6613.047

[GRAPHIC] [TIFF OMITTED] T6613.048

[GRAPHIC] [TIFF OMITTED] T6613.049

[GRAPHIC] [TIFF OMITTED] T6613.050

[GRAPHIC] [TIFF OMITTED] T6613.051

[GRAPHIC] [TIFF OMITTED] T6613.052

[GRAPHIC] [TIFF OMITTED] T6613.053

[GRAPHIC] [TIFF OMITTED] T6613.054

[GRAPHIC] [TIFF OMITTED] T6613.055

[GRAPHIC] [TIFF OMITTED] T6613.056

[GRAPHIC] [TIFF OMITTED] T6613.057

[GRAPHIC] [TIFF OMITTED] T6613.058

[GRAPHIC] [TIFF OMITTED] T6613.059

[GRAPHIC] [TIFF OMITTED] T6613.060

[GRAPHIC] [TIFF OMITTED] T6613.061

[GRAPHIC] [TIFF OMITTED] T6613.062

[GRAPHIC] [TIFF OMITTED] T6613.063

[GRAPHIC] [TIFF OMITTED] T6613.064

[GRAPHIC] [TIFF OMITTED] T6613.065

[GRAPHIC] [TIFF OMITTED] T6613.066

[GRAPHIC] [TIFF OMITTED] T6613.067

[GRAPHIC] [TIFF OMITTED] T6613.068

[GRAPHIC] [TIFF OMITTED] T6613.069

[GRAPHIC] [TIFF OMITTED] T6613.070

[GRAPHIC] [TIFF OMITTED] T6613.071

[GRAPHIC] [TIFF OMITTED] T6613.072

                                 <all>

</pre></body></html>
